BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Supplemental Brief for Petitioner in 19-1201,
Clay Bright, Commissioner of Tennessee Department of
Transportation u. William Harold Thomas, Jr., was
sent via Next Day Service to the U.S. Supreme Court,
and 3 copies were sent via Next Day Service and email to the following parties listed below, this 18th day
of June, 2020:
Allen Joseph Dickerson
Institute for Free Speech
1150 Connecticut Avenue, NW
Suite 801
Washington, DC 20036
(202) 301-9000
adickerson@ifs.org
Counsel for Respondent
HERBERT H. SLATERY

III

Attorney General and Reporter
State of Tennessee
ANDREE S. BLUMSTEIN

Solicitor General

SARAH K. CAMPBELL

Associate Solicitor General
Counsel of Record
Office of the Attorney General
P.O. Box 20207
Nashville, TN 37202
(615) 532-6026
sarah.camp bell@ag.tn. gov
Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

I

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on June 18, 2020.

Donna J. Wolf
Becker Gallagher Legal P u lishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]
JO~N D. GALLAGHER
t·Wt.,,y Public, State ol_Ohio
My Commission Expires
February ·14, 2023

